<html>
<title> - STATE OF PLAY: FEDERAL IT IN 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]









                   STATE OF PLAY: FEDERAL IT IN 2018

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         INFORMATION TECHNOLOGY

                                AND THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 14, 2018

                               __________

                           Serial No. 115-75

                               __________

Printed for the use of the Committee on Oversight and Government Reform






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
31-105 PDF                WASHINGTON : 2018                 
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Blake Farenthold, Texas              Jim Cooper, Tennessee
Virginia Foxx, North Carolina        Gerald E. Connolly, Virginia
Thomas Massie, Kentucky              Robin L. Kelly, Illinois
Mark Meadows, North Carolina         Brenda L. Lawrence, Michigan
Ron DeSantis, Florida                Bonnie Watson Coleman, New Jersey
Dennis A. Ross, Florida              Raja Krishnamoorthi, Illinois
Mark Walker, North Carolina          Jamie Raskin, Maryland
Rod Blum, Iowa                       Jimmy Gomez, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matt Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     Stacey E. Plaskett, Virgin Islands
Gary J. Palmer, Alabama              John P. Sarbanes, Maryland
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                    William McKenna, General Counsel
                         Meghan Green, Counsel
     Troy Stock, Information Technology Subcommittee Staff Director
     Julie Dunne, Government Operations Subcommittee Staff Director
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                 Subcommittee on Information Technology

                       Will Hurd, Texas, Chairman
Paul Mitchell, Michigan, Vice Chair  Robin L. Kelly, Illinois, Ranking 
Darrell E. Issa, California              Minority Member
Justin Amash, Michigan               Jamie Raskin, Maryland
Steve Russell, Oklahoma              Stephen F. Lynch, Massachusetts
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Greg Gianforte, Montana              Raja Krishnamoorthi, Illinois
                                 ------                                

                 Subcommittee on Government Operations

                 Mark Meadows, North Carolina, Chairman
Jody B. Hice, Georgia, Vice Chair    Gerald E. Connolly, Virginia, 
Jim Jordan, Ohio                         Ranking Minority Member
Mark Sanford, South Carolina         Carolyn B. Maloney, New York
Thomas Massie, Kentucky              Eleanor Holmes Norton, District of 
Ron DeSantis, Florida                    Columbia
Dennis A. Ross, Florida              Wm. Lacy Clay, Missouri
Rod Blum, Iowa                       Brenda L. Lawrence, Michigan
                                     Bonnie Watson Coleman, New Jersey
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 14, 2018...................................     1

                               WITNESSES

Mr. David Powner, Director of IT Management Issues, U.S. 
  Government Accountability Office
    Oral Statement...............................................     3
    Written Statement............................................     6
The Honorable Margaret Weichert, Deputy Director for Management, 
  Office of Management and Budget
    Oral Statement...............................................    47
    Written Statement............................................    49
Mr. Bill Zielinski, Deputy Assistant Commissioner of the IT 
  Category, U.S. General Services Administration
    Oral Statement...............................................    59
    Written Statement............................................    61
The Honorable Jeanette Manfra, Assistant Secretary for the Office 
  of Cybersecurity and Communications, U.S. Department of 
  Homeland Security
    Oral Statement...............................................    66
    Written Statement............................................    68

                                APPENDIX

Response from Ms. Weichert, OMB, to Questions for the Record.....    92
Response from Mr. Zielinski, GSA, to Questions for the Record....    94

 
                   STATE OF PLAY: FEDERAL IT IN 2018

                              ----------                              


                       Wednesday, March 14, 2018

                  House of Representatives,
Subcommittee on Information Technology, joint with 
         the Subcommittee on Government Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 3:16 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Will Hurd 
[chairman of the Subcommittee on Information Technology] 
presiding.
    Present from the Subcommittee on Information Technology: 
Representatives Hurd, Gianforte, Kelly, and Krishnamoorthi.
    Present from the Subcommittee on Government Operations: 
Representatives Hice, Blum, Connolly, and Maloney.
    Mr. Hurd. The Subcommittee on Information Technology and 
the Subcommittee on Government Operations will come to order.
    And, without objection, the presiding member is authorized 
to declare a recess at any time.
    Good afternoon. Sorry for the wait, but it is Washington, 
D.C. And the House of Congress is the people's House, but 
sometimes we get a little delayed.
    We have had momentum over the last couple years. I think 
this year, or this Congress, with the Federal IT modernization 
effort through the passage of the MGT Act, the Modernizing 
Government Technology Act, we have gained strength and force. 
This, now a law, is bipartisan legislation that will, for the 
first time, reward and incentivize Federal agencies and CIOs to 
cut costs and invest in cutting-edge technology.
    The effort, also, of modernization has gained momentum from 
Trump administration initiatives like establishing the Office 
of American Innovation, releasing an IT modernization report, 
and retaining good ideas from the previous administration, 
including the U.S. Digital Service.
    I am concerned, however, that in some areas we have lost 
momentum. We went too long without a Federal CIO. I am glad Ms. 
Kent is now in the position and look forward to having her up 
here before the committee within the next few months.
    I am also pleased that Ms. Weichert is in place as the 
Deputy Director for Management at OMB.
    I have spoken to my former colleague, Director Mulvaney, 
about our efforts here in the subcommittee and how we can work 
together to modernize government. He is an enthusiastic 
supporter of using emerging technologies to make government 
more efficient and accountable.
    We need to rethink how we structure the Federal workforce, 
to ensure the Federal Government has access to smart, well-
trained IT and cybersecurity professionals, and be working in a 
bipartisan fashion, as always, in introducing a bill in the 
coming months to establish the U.S. cyber reserves, a public/
private-sector rotational workforce. I look forward to the 
witnesses' thoughts on how to best organize and structure this 
kind of workforce.
    I also continue to have concerns about longstanding GAO 
recommendations that remain unaddressed, oftentimes year after 
year after year. These open, lingering vulnerabilities put us 
at incredible risk, as we saw with the devastating data breach 
at OPM, which it is crazy to think was almost 3 years ago.
    I want to hear from GAO their most critical open 
recommendations and, from the rest of the witnesses, concrete 
plans to close them. Let's use this hearing to ensure IT 
modernization across the Federal Government continues, even 
with more force and strength, in 2018. Let's not lose the 
momentum.
    And, as always, it is an honor to be exploring these very 
important issues in a bipartisan fashion with my friend, the 
ranking member, the one and only, the Honorable Robin Kelly 
from Illinois.
    Ms. Kelly. Thank you, Mr. Chairman. Thank you for calling 
today's hearing on the Federal Government's information 
technology.
    These two subcommittees have prioritized holding agencies 
accountable for their compliance with the Federal Information 
Technology Acquisition Reform Act in the effort to modernize 
our legacy IT systems. We have managed to work in a bipartisan 
manner not only to conduct oversight but to introduce 
legislation seeking to address the Nation's IT and 
cybersecurity problems.
    Improving the efficiency and security of the Federal 
Government's IT system is essential to our Nation's security. 
In order to improve the efficiency and security, we must 
modernize legacy IT systems across every Federal agency.
    The Federal Government spends nearly $60 billion just to 
sustain its existing outdated IT. When agencies must spend 75 
percent of their IT budgets merely to maintain legacy systems, 
they predictably fall behind in the effort to modernize.
    That is why the Modernizing Government Technology Act of 
2017 is critical to shoring up our Nation's cybersecurity and 
moving us forward. MGT is now law. It creates a working capital 
fund called the Technology Modernization Fund that will have 
money for efforts like cloud migration for agency CIOs to think 
creatively about modernization.
    The next couple of months will determine whether the MGT 
Act is allowed to spur that type of innovation. I was pleased 
to see that the President's proposal budget called for $228 
million for the modernization fund. OMB Director Mulvaney 
recently released a memo to agencies with guidance on MGT's 
implementation.
    The board overseeing the modernization fund is in place. It 
is now up to Congress to fund this important effort. Our 
government technology is too outdated to allow this opportunity 
to pass us by.
    By allocating these funds, we further our goals under 
FITARA to fully empower agency CIOs. I view the MGT Act as a 
natural complement of FITARA. We cannot speak about important 
efforts, like moving to the cloud and data center 
consolidations, without providing the funding necessary to make 
that happen.
    In addition to modernizing our technology, we must 
modernize our Federal workforce to make sure they have the 
tools and skills necessary to address the problems of not only 
today but tomorrow.
    In 2016, GAO found that the evolving array of cyber-based 
threats continue to pose a risk to our national security. The 
government's inability to attract and retain qualified cyber 
professionals throughout the government threatens our ability 
to address these cyber threats. Therefore, attracting IT and 
cybersecurity talent is critical to the safety of every 
American and the security of our country.
    I hope that our witnesses can update us on the state of the 
Federal IT and how each agency plans to address the 
opportunities and challenges facing the Federal Government.
    Thank you, Mr. Chairman.
    Mr. Hurd. Thank you, Ranking Member Kelly.
    And when the ranking member and chair of Government 
Operations get here, we will allow them to have opening 
remarks, if they do. But now it is a pleasure to introduce our 
witnesses.
    Mr. David Powner, probably our most visits to this 
committee of anybody in government. Thanks for being here. And 
he is the Director of IT Management Issues at GAO.
    The Honorable Margaret Weichert, Deputy Director for 
Management at the Office of Management and Budget. Thank you 
for being here.
    Mr. Bill Zielinski, Deputy Assistant Commissioner of the IT 
Category at the General Services Administration.
    And last but not least, the Honorable Jeanette Manfra, 
Assistant Secretary for the Office of Cybersecurity and 
Communications at the Department of Homeland Security.
    Welcome to you all. And pursuant to committee rules, all 
witnesses will be sworn in before you testify, so please stand 
and raise your right hand.
    Do you solemnly swear or affirm the testimony you are about 
to give is the truth, the whole truth, and nothing but the 
truth, so help you God?
    Thank you.
    Please let the record reflect that the witnesses answered 
in the affirmative.
    In order to allow time for discussion, please limit your 
opening remarks to 4 minutes. Your entire written statement 
will be part of the record.
    And as a reminder, the clock in front of you shows the 
remaining time during your opening statement. The light will 
turn yellow when you have 30 seconds left and red when your 
time is up. Please also remember to press the button for the 
speaker.
    So, with that, Mr. Powner, welcome back.

                       WITNESS STATEMENTS

                   STATEMENT OF DAVID POWNER

    Mr. Powner. Chairman Hurd, Ranking Member Kelly, and 
members of the subcommittee, I would like to commend your 
subcommittee for your consistent and thorough oversight of IT 
and cybersecurity issues, in particular with FITARA and with 
recently moving the FITARA Enhancement Act and MGT.
    This afternoon, I will highlight top priorities for OMB and 
agencies. My comments will address three broad areas: human 
capital, acquisitions, and operations.
    CIO authorities still need to be strengthened, despite 
significant improvements from FITARA. Your push to elevate 
these positions at departments and agencies is still needed. 
Currently, 13 of the 24 CIOs report to the DEPSEC or higher. 
OMB plays a critical role here, especially with the recent 
focus on agency reorganizations.
    Also, cybersecurity and IT workforce needs to be further 
strengthened. Specifically, we still need to properly identify 
and tackle our workforce gaps. Properly addressing many of 
these needs with contractors is a critical part of the solution 
here. GAO has ongoing government-wide reviews looking at both 
the cybersecurity and IT workforce needs.
    Turning to improvements on major acquisitions, we still 
need to stay the course with major provisions in FITARA. This 
starts with incremental development. Your scorecard shows major 
progress in this area, but we still have too many projects not 
tackling this in manageable segments.
    We also need to have IT shops aware of IT contracts so that 
we can avoid duplication and to ensure the right governance 
over these acquisitions. A recent contracting review was 
discouraging, as only one-third of the agencies had a process 
to approve IT contracts consistent with FITARA and OMB 
guidance.
    And of our sample of almost 100 contracts, only 10 percent 
were approved by CIOs or their designee. Strengthening the 
relationship between CIOs and chief acquisition officers is 
needed.
    We also believe the Nation's top Federal IT acquisitions 
should have OMB governance over them in addition to agency 
governance. The top acquisitions should include VA and DOD's 
EHR acquisitions, IRS's K-2 project, SSA's disability case 
processing system, and FAA's NextGen acquisitions.
    The reason these acquisitions need OMB's attention is 
because these agencies, left alone, haven't managed them well. 
The administration's attention to VA's EHR solution is spot-on; 
we just need more of this. We have a review underway where we 
are identifying and profiling these most critical acquisitions.
    Regarding operational systems, again, we need to stay the 
course with FITARA. Data center optimization metrics provide 
great transparency on where agencies are at with their 
optimization metrics. And extending the sunset date from 2018 
to 2020 will give agencies more time to both optimize and save.
    A couple key points here: Savings still can be significant 
as we optimize space and equipment. And the MGT working capital 
funds can be used to invest in unfunded priorities.
    Also, these agencies who can't optimize by 2020 need to get 
out of the data center business. We plan to report annually 
through 2020 on agencies' data center progress.
    We also believe that the Nation's most mission-critical 
legacy systems that are costly to maintain and pose significant 
cyber risk due to unsupported software need to be replaced with 
modern, secure technologies and ultimately decommissioned.
    OMB needs to have an active role here to ensure that these 
old systems, like VA's VistA system and IRS's Individual Master 
File, have plans to replace and decommission.
    The administration's recent modernization strategy was 
solid on network modernization, shared services, and cyber but 
light on tackling these most challenging modernization efforts. 
CIOs with average tenures of 2 years don't always focus on 
these longer-term, challenging legacy systems, which is even 
more reason for OMB to drive this. We have a review underway 
where we are identifying and profiling these legacy systems 
most in need of modernization.
    In conclusion, the American Tech Council, the Office of 
Innovation, and the modernization strategy are all positive 
developments. Now we need more action and implementation from 
OMB and agencies.
    Key focus areas should be on fixing CIO authorities in the 
IT workforce; regarding acquisitions: incremental development, 
CIO alignment with acquisitions, and the focus on our Nation's 
top acquisitions is needed. On the operations side, data center 
optimization and mission-critical legacy modernization need 
continued attention.
    Finally, the Comptroller General held a forum with prior 
Federal and agency CIOs from previous administrations in late 
2016 to explore what has worked over the years in Federal IT. 
The results of this forum, summarized on page 10 of my written 
statement, are consistent with the comments here this afternoon 
and highlight the critical role OMB leadership plays.
    Mr. Chairman, again, thank you for your oversight of 
Federal IT.
    [Prepared statement of Mr. Powner follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Mr. Hurd. Thanks for being an important partner on this.
    And I misspoke. I apologize. Everybody has 5 minutes.
    So, Ms. Weichert, you are now up for your 5 minutes.

          STATEMENT OF THE HONORABLE MARGARET WEICHERT

    Ms. Weichert. Thank you very much. It's great to be here on 
Pi Day to talk about this important subject.
    So, Chairman Hurd, Ranking Member Kelly, and members of the 
subcommittees, thank you for the opportunity to appear before 
you today to discuss the state of Federal information 
technology in 2018.
    In December, in testifying before the Senate Committee on 
Homeland Security and Governmental Affairs, I discussed the 
range of disciplines that the Deputy Director for Management is 
charged with overseeing, including IT, information security, 
human capital management, finance, accounting, performance 
management, and procurement.
    Today, as the newly sworn-in Deputy Director for 
Management, I'm working with our agency partners to drive 
necessary improvement in those disciplines. And I'm excited to 
talk about one of those areas, IT modernization, in depth.
    Improving our technology infrastructure is fundamental to 
aligning the executive branch to the mission, service, and 
stewardship needs of the 21st century. To that end, next week, 
we will release the President's Management Agenda, the PMA, an 
agenda which places IT modernization at its core.
    The PMA sets out a long-term vision for more effective 
government that better achieves missions and enhances the key 
services upon which the American people depend. IT 
modernization must provide the essential backbone of the 
government service delivery while keeping sensitive data and 
systems secure. And the President's Management Agenda also 
links to related critical issues associated with data 
accountability and transparency as well as the people and 
workforce for the 21st century.
    Since the establishment of the Office of E-Government and 
Information Technology in 2002, OMB has played a pivotal role 
in formulation of IT policy and strategic direction across the 
Federal Government. The Office of the Federal CIO, the Chief 
Information Security Office of the U.S., and the United States 
Digital Service are all in my organization. And, together, 
these groups leverage the convening authorities of OMB, 
including the CIO Council and the CISO Council, to coordinate 
executive-branch IT modernization activities.
    In addition, since 2014, U.S. Digital Service has been 
focused on improving and transforming the experience of 
Americans who interact with government online. This means that 
more citizens can easily and seamlessly access government 
services online due to more secure identity-proofing. It means 
veterans are receiving appeals responses in a more timely 
manner. It has enhanced Medicare claims processing, allowing 
citizens to access health data online. And USDS has also helped 
made it easier for small businesses to compete for government 
contracts and for acquisition officers to be better positioned 
to acquire commercial technology. Ultimately, all this work is 
part of a broader strategy to help rebuild Americans' trust in 
government.
    Today, I look forward to talking with you about a range of 
IT modernization initiatives, including the IT modernization 
report, the Modernizing Government Technology Act, Federal 
cybersecurity policy, agency IT transformation activities, 
including the work of U.S. Digital Service, and the IT 
workforce of the future, to name a few areas. More detailed 
background on many of these topics is included in my written 
testimony for the record.
    And, in closing, OMB looks forward to working with the 
Oversight and Government Reform Committee and with Congress 
broadly on IT modernization. Over the years, this oversight 
committee has been instrumental in driving Federal IT 
modernization through its role in developing legislation such 
as FITARA, the DATA Act, and the MGT Act. Through our 
collaborative efforts, I know we will be able to improve 
government services and cybersecurity.
    I thank the subcommittees for holding this hearing and for 
your commitment to IT modernization. I will be pleased to 
answer any questions you have.
    [Prepared statement of Ms. Weichert follows:]
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Hurd. Thank you.
    Mr. Zielinski, you are now recognized for 5 minutes.

                  STATEMENT OF BILL ZIELINSKI

    Mr. Zielinski. Great. Good afternoon, Chairman Hurd, 
Ranking Member Kelly, and members of the subcommittee. My name 
is Bill Zielinski, and I am the Deputy Assistant Commissioner 
for the Office of Information Technology Category in GSA's 
Federal Acquisition Service. In addition, I also serve as the 
Office of Management and Budget-appointed government-wide IT 
category manager.
    I am pleased to be here today to discuss the important role 
GSA plays in Federal information technology efforts government-
wide.
    The IT Category at GSA enables agencies in the acquisition 
of $50 billion in goods and services annually from more than 
20,000 industry partners. ITC's top priority is to maximize 
customer value and mission productivity.
    And while GSA brings significant capabilities to the table 
in facilitating the modernization of the Federal Government's 
IT infrastructure and applications, it's through the strategic 
partnerships with other agencies and our industry partners 
where we will make the greatest progress.
    For instance, I work closely with OMB's Office of Federal 
Procurement Policy and administrator of the Office of 
Electronic Government to review the Federal IT spend, determine 
where opportunities exist to collaborate on the acquisition of 
IT products and services, and implement strategies to get more 
value from IT dollars.
    In that vein, I would now like to discuss four key ways in 
which GSA is supporting the modernization of the Federal 
Government's IT infrastructure and applications.
    First, in December, the American Technology Council issued 
its final report to the President on Federal IT modernization. 
The report is the culmination of a months-long process to 
develop a strategic plan that approves the security posture of 
Federal IT and incorporates feedback from industry and members 
of the public.
    The report has three key objectives that will inform future 
efforts: to reduce the Federal attack surface through enhanced 
application and data-level protections; to improve visibility 
beyond the network level; and to ensure that policy, resource 
allocation, acquisition, and operational approaches to security 
enable the use of new technology without sacrificing 
reliability or performance.
    GSA is directly tasked, in whole or in part, with half of 
the 50 action items recommended by the report and is actively 
working on these deliverables in accordance with report 
timelines.
    Second, the MGT Act is another critical tool for 
modernizing Federal IT. GSA thanks the members of these 
subcommittees for their dedication to getting this legislation 
passed.
    GSA is tasked with several key actions related to the MGT's 
Technology Modernization Fund. Chief among them is providing 
broad support for the Technology Modernization Board's 
activities, including technical support and the monitoring of 
agencies that receive funds from the TMF. Subject to 
appropriations, the GSA is prepared to help administer this 
critically important fund.
    Third, in partnership with the White House Office of 
American Innovation, GSA is working to establish five new 
centers of excellence. The COEs will house centralized 
function-specific talent, products, and acquisition vehicles. 
These teams will provide expert advice, development resources, 
and support solution implementation in the areas of cloud 
adoption, IT infrastructure optimization, customer experience, 
service delivery analytics, and contact centers. The first 
client agency for the COEs is the United States Department of 
Agriculture.
    Finally, GSA is helping agencies adopt new approaches for 
buying commercial off-the-shelf and as-a-service solutions. By 
leading in the development of modular contracting approaches to 
enable agile and efficient development of complex, new 
requirements, we are able to assist agencies through the entire 
lifecycle of procurement and system development.
    GSA's unique mix of talent and expertise in acquisition 
technology and service delivery, combined with our government-
wide scope and scale, makes our agency an agent of 
transformation in how agencies will buy, build, and use 
technology.
    I want to thank you for the opportunity to appear before 
you today to discuss GSA's role, and I look forward to 
answering your questions.
    [Prepared statement of Mr. Zielinksi follows:]
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
    Mr. Hurd. Thank you.
    And, Ms. Manfra, you are now recognized for 5 minutes for 
your opening remarks.

           STATEMENT OF THE HONORABLE JEANETTE MANFRA

    Ms. Manfra. Thank you.
    Chairman Hurd, Ranking Member Kelly, members of the 
committee, thank you for today's opportunity to discuss the 
Department of Homeland Security's efforts to secure Federal 
networks.
    I would like to begin my testimony by thanking Congress for 
its work on the Cybersecurity and Infrastructure Security 
Agency Act of 2017. If enacted, this legislation will 
streamline the National Protection and Programs Directorate, or 
NPPD, and rename our organization to more clearly reflect our 
central role in government and private-sector critical 
infrastructure security. Much progress has been made, but we 
must stay focused until this work is complete. The Department 
strongly supports this effort and encourages swift action by 
Congress.
    Cyber threats remain one of the most significant strategic 
risks for the United States, threatening our national security, 
economic prosperity, and public health and safety. Over the 
past year, Federal network defenders saw the threat landscape 
grow more crowded, active, and dangerous. While in many cases 
our defenses have been successful in mitigating these threats, 
we must do more to ensure our cyber defenses keep pace of 
technological change and evolving risk.
    In my role at DHS, I head the Office of Cybersecurity and 
Communications. A core part of my role is protecting and 
managing the overall information security of Federal civilian 
networks. To do this, we must first gain visibility to 
understand the exposure that the Federal enterprise faces. Then 
we need to use our authorities to reduce this risk, whether 
that's through directives, guidance, or direct support to 
agencies. And, finally, we must build capacity within agencies 
to implement our guidance, act on threat information, and fully 
leverage the capabilities and services that DHS has to offer.
    Programs like the National Cybersecurity Protection System, 
or EINSTEIN, and the Continuous Diagnostics and Mitigation 
Program directly serve and enable these three lines of effort.
    Last year, the President signed an executive order on 
strengthening the cybersecurity of Federal networks and 
critical infrastructure, which set in motion a series of 
assessments and deliverables to improve our defenses and lower 
our risk to cyber threats.
    Across the Federal Government, agencies have been 
implementing the NIST Cybersecurity Framework. Agencies have 
been reporting to DHS and OMB on their cybersecurity risk 
mitigation and acceptance choices. DHS and OMB have evaluated 
the totality of these agencies' reports in order to 
comprehensively assess the Federal Government's cybersecurity 
risk management posture.
    The assessment found the Federal enterprise to be at risk. 
The choices we make to reduce this risk, in both cybersecurity 
budget and operational priorities, must be informed by a data-
driven, risk-based assessment of Federal cybersecurity and the 
threat environment.
    As part of the executive order, my office has been working 
with OMB, GSA, and Federal agencies to modernize the Federal 
Government's IT infrastructure. We are exploring opportunities 
to consolidate network architectures, embrace shared IT 
services, all the while emphasizing cybersecurity as a 
foundational element to all new IT services.
    We recognize that legacy IT systems present considerable 
challenges in efforts to secure Federal networks. The risks 
posed by these antiquated, end-of-life systems has perhaps best 
been demonstrated by the difficulties agencies face in 
complying with DHS's binding operational directives which 
govern vulnerability patching. Some legacy systems can no 
longer be patched, others are not supported by vendors, and 
some experience significant performance issues if not 
reconfigured during the security upgrade process.
    While in most cases DHS and the agencies have been able to 
address these issues and either upgrade, transition, or 
mitigate the problem entirely, this complicates and adds cost 
to agency efforts to patch their own systems--an exercise that 
does need to be as painless as possible.
    While the use of more modern IT has efficiencies and 
convenience of its own, the benefits it brings to cybersecurity 
efforts are also significant.
    My organization works with departments and agencies to 
identify and prioritize high-value assets or those systems for 
which a cyber incident could cause significant impact to the 
United States. We conduct security architecture reviews to 
assess network architectures and configurations and conduct in-
depth vulnerability assets, which determine how an adversary 
could compromise these systems, persist in their networks, and 
gain access to sensitive data.
    These assessments provide system owners with 
recommendations to address identified vulnerabilities and 
assist them in prioritizing their limited resources to fix the 
worst things first.
    In closing, I want to assure this committee that DHS is 
embracing our statutory responsibility to administer the 
implementation of Federal agency cybersecurity policies and 
practices by leading the effort to secure the Federal 
enterprise, in coordination with my partners on the panel, 
following a risk-based approach.
    This committee played a key role in championing the passage 
of FISMA 2014 and clarifying these important authorities for 
DHS, and we thank you for those.
    The overarching goal of Federal cybersecurity is to ensure 
that every agency maintains an adequate level of cybersecurity 
commensurate with its own risk and with those of the Federal 
enterprise.
    Thank you for the opportunity to testify, and I look 
forward to any questions you may have.
    [Prepared statement of Ms. Manfra follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Hurd. Thank you.
    And now it's a pleasure to recognize the gentleman from 
Montana for 5 minutes.
    Mr. Gianforte. Thank you, Mr. Chairman.
    And thank you to the panel.
    Mr. Powner, it's good to see you again. It seems like 
you're here monthly. And I appreciate your help in moving 
forward the IT procurement.
    Mr. Zielinski, I would like to dive in a little bit into 
GSA's role in procurement, particularly as it relates to shared 
services. Could you talk a little bit about, to help the 
committee, what are shared services and what do you see as the 
benefits of mandating those for agencies where appropriate?
    Mr. Zielinski. So, in the broadest sense, shared services 
is an opportunity for us to, rather than having each agency 
independently build out a capability set, to be able to build 
those out in a centralized way.
    It could be that it is a government-operated, government-
built shared service, or it could be that it is a commercially 
offered solution. In working with the Office of Management and 
Budget, as well as with our own Unified Shared Services 
Management office, we are working to develop a series of shared 
services along the lines of business.
    There's a lot of opportunities and benefits to this 
approach. First of all, there's significant cost savings. 
Secondly, as we talked about, the security posture, that 
ability for us to protect the shared service and be able to 
make changes to that individual or that one shared service and 
have all of the participants benefit across the government is 
significant.
    Mr. Gianforte. Okay. And what IT services are already being 
procured under a shared services model?
    Mr. Zielinski. Oh, sir, there are a number. What I would 
like to offer is to be able to bring the full list, but I'll 
give you some examples here today.
    Mr. Gianforte. Please.
    Mr. Zielinski. For one, we have a shared service offering 
that's in and around the implementation or the issuance of the 
PIV credentials, the HSPD-12 PIV credentials. That is operated 
out of GSA. There are 110 customer agencies with more than 
750,000 credentials under active management.
    That's an example of a very mature shared service that is 
utilized across government. There's shared infrastructure for 
agencies to be able to go to, common issuance sites. In 
addition, there are shared services for payroll, shared 
services for financial services. And we continue to build out 
other shared services.
    And, again, I will bring back a more complete list of what 
those shared service offerings are.
    Mr. Gianforte. Okay. So it sounds like shared services 
allow us to standardize procurement in such a way that various 
agencies don't have to roll their own, so to speak?
    Mr. Zielinski. Correct.
    Mr. Gianforte. Yeah.
    So there's cost savings. You mentioned earlier $50 billion 
of annual procurement. If shared services were fully 
implemented where appropriate, how big is the size of the prize 
in terms of savings?
    Mr. Zielinski. Yeah, I don't have an answer for that. You 
know, I think that as we are now going through the different 
lines of business and identifying those opportunities for 
shared services, we'll have a much better or more complete 
picture of what those savings opportunities are.
    Mr. Gianforte. In instances where you have used shared 
services, how much savings resulted?
    Mr. Zielinski. It differs based upon the service itself. 
And, again, what I can do is bring back some more explicit 
information for each of these shared services as to where that 
is.
    Mr. Gianforte. Okay.
    So cost savings are one benefit. What impact does it have 
on security when a service is shared versus implemented 
individually by the agencies?
    Mr. Zielinski. So I would like to start, and I would also 
like to ask my partner, Ms. Manfra, to also add in as well.
    One of the things that we're able to do is that, as each 
individual agency is building out a capability, that means that 
those individual agencies are also responsible for ensuring 
that they are patching and kind of doing the basic blocking and 
tackling that's necessary to secure the capability, and that if 
there is something that happens within the overall system that 
they have to respond to, that also means that they each 
individually would have to do that.
    In a shared services instantiation, we have where there is 
a central group who is managing that security posture of the 
shared service. And that means that, when there is something 
that occurs or there is a need for us to make a change or to 
address a vulnerability, we are able to do that once and it is 
addressed for all of the customers of that.
    Mr. Gianforte. And, again, I want to go back to my prior 
question. I realize you want to go collect more data, and I do 
want an accurate answer. But it seems like shared services 
presents an opportunity to standardize procurement, limit 
variability, increase security, and lower cost, all of which 
are good objectives.
    Where is shared services on your priority list as you're 
working with agencies on procurement?
    Mr. Zielinski. So I will say that, going back to the IT 
modernization report, this is one of the core principles within 
the President's IT modernization report, is for us to look for 
those opportunities to build out shared services to be able to 
both speed the modernization but also to increase the 
protection. So it is one of the core priorities in moving 
forward with modernization.
    Mr. Gianforte. And final question: Who should be managing 
these shared services within the government?
    Mr. Zielinski. The plan, as it stands today, is to look for 
managing partners based upon the capability areas. So, 
dependent upon what the business function or area is, that 
there is a role for the appropriate agency. So, in the case of 
HR shared services, OPM would have a significant role, as an 
example.
    Mr. Gianforte. So, then, they could be a service provider 
to other agencies, if necessary?
    Mr. Zielinski. Correct.
    Mr. Gianforte. Okay. Thank you.
    I yield back, Mr. Chairman.
    Mr. Hurd. Ranking Member Kelly.
    Ms. Kelly. Thank you.
    The growing rate of sophisticated data breaches and cyber 
attacks in the private and public sector have heightened 
concerns over the security and strength of Federal IT systems.
    And some of these devastating attacks succeed because 
Federal systems are dangerously outdated and obsolete. And I 
mentioned in my opening statement that nearly 75 percent of the 
Federal Government's IT budget is dedicated toward maintaining 
legacy computer systems.
    Mr. Powner, why does it take such a large share to maintain 
those systems?
    Mr. Powner. Well, I think, historically, operational 
systems in the Federal Government get a pass. So when you look 
at that's something the lights are on and it's running and 
we're serving the mission, we might not be serving the mission 
efficiently, we might not be serving the mission securely, but 
it's gotten a pass over the years. That's been the biggest 
problem.
    I think this committee, you know, going back to 2016, when 
we did the big report with the 8-inch floppy disk at DOD, 
helped raise the issue of how old and insecure and costly these 
systems are.
    We are starting to make progress. The problem is that we 
still need firm dates to replace these systems where we 
actually turn them off. I mean, I agree with all the comments, 
that it's difficult to maintain and patch, there's unsupported 
software. But, ultimately, the security solution is turning 
them off and decommissioning them.
    Ms. Kelly. I'm not trying to be comical, but because the 
systems are so old, do we even have the staff--we talk about 
the staff for the new systems and the workforce, but what about 
the staff to maintain these systems?
    Mr. Powner. Well, that--so it's very difficult. I know, 
personally, I do a lot of detailed work at IRS, and when you 
start looking at assembly programmers there, we're losing them 
left and right. We pay a premium to contractors to maintain. We 
pay other younger programmers who know modern language as a 
retention. It costs money to maintain these systems. And each 
year we go on, it costs more and more, and we become more and 
more insecure.
    Ms. Kelly. And what happens if we just turn it off?
    Mr. Powner. Well, right now, we need a lot of these 
mission-critical systems to actually do the mission. You know, 
the IMF system at IRS, that's where we get $3.3 trillion in 
revenue through tax returns. It's critical.
    Ms. Kelly. Uh-huh.
    Mr. Powner. Chairman Hurd's held hearings on the VA VistA 
system. I mean, we still need that to apply medical services to 
our veterans.
    But, again, you know, that's why we need to keep them 
running, because they're mission-critical.
    Ms. Kelly. Okay. Thank you.
    The Modernizing Government Technology Act is a key 
component of this administration's continued effort to improve 
Federal technology by providing financial resources and 
technical expertise to agencies.
    Does the MGT Act continue to be, you think, a priority for 
the Trump administration and OMB?
    Ms. Weichert. Absolutely. The MGT Act and the Technology 
Modernization Fund are absolutely priorities for the 
administration.
    And we've actually pulled together in the President's 
Management Agenda, which will be released next week and was 
hinted at in the President's budget in February, a wholistic 
perspective on how we tackle these issues, which is not purely 
the technology piece, as you have mentioned. It includes issues 
around data and data structure. It also includes very critical 
people issues.
    We want to solve these issues wholistically, build on past 
successes, and we believe that the MGT and the Technology 
Modernization Fund will be great stepping stones toward the 
future of really pulling all of these dimensions together so 
that they are not siloed by function, where, you know, we have 
CIOs, you know, who, by the way, need more authority--and you 
all have done great work in FITARA to do that, and we support 
that. But we also need the human capital element, the financial 
element, the procurement element to be at the same table.
    And so what we're laying out in the President's Management 
Agenda is that wholistic framework. It was why I was so eager 
to actually be here and share. Because one of the root-cause 
observations that we had when we looked at how government was 
tackling these issues versus the private sector, it was that 
lack of integration across function. And we plan to tackle 
that, leveraging these authorities that Congress has provided 
through the MGT Act and TMF.
    And, by the way, we really hope the appropriators actually 
fund the TMF.
    Ms. Kelly. Okay. Thank you.
    Mr. Powner, can you comment on the steps that OMB is 
taking?
    Mr. Powner. Well, I think, clearly, the guidance that OMB 
just put out, you know, that's the right direction. And that 
guidance was very solid. You know, now the hard part is 
implementation. You know, we're really good at plans and 
guidance in this town, but we're not always good at getting 
things done and implementing them completely.
    So let's do this right with the MGT Act, because we got 
savings out there. As Mr. Zielinski said, with shared services 
or still with some data centers, we can populate these working 
capital funds and really do MGT right.
    Ms. Kelly. Thank you.
    And I yield back.
    Mr. Hurd. Mr. Blum, you're now recognized for 5 minutes.
    Mr. Blum. Thank you, Chairman Hurd.
    Thank you to our panelists for being here today.
    Mr. Powner, your challenge is, in the next 5 minutes, to 
make me an expert on cloud computing. Cloud computing has been 
in the news lately with the Federal Government. Department of 
Defense, I think, is looking at going to cloud computing. I 
assume the entire government will be there at some point.
    Can you talk to me about the efforts to go to cloud 
computing, A? B, financially, is that going to save the 
taxpayers money or not? And, C, I'm particularly interested in 
the following, and that is, will it be more secure or less 
secure or perhaps the same level of security that we have 
today, not being in the cloud?
    Mr. Powner. So there's all kinds of various aspects of the 
cloud. So, like, for instance, on our data center situation we 
have, when I say that some agencies by 2020 should get out of 
the business of data centers, that's because we have 
inefficient data centers that they're not going to optimize, 
maybe two-thirds of them. And what we could do there is we 
could host our existing applications in a cloud environment or 
on servers and infrastructure maintained by contractors who are 
cloud providers.
    So that's one way that we could actually save money and 
have optimized data centers, by actually outsourcing all of it 
to the cloud.
    We can also, too, in some of the shared service areas that 
we talked about, you can actually buy software as a service in 
the cloud from many of these cloud providers. And that's 
another way where we can save money.
    However, there are some of these mission-critical 
applications like some of these homegrown systems that are 
critical to agencies' mission that you're not going to find 
that as a software, as a service, that we've got to actually 
just do the hard work and convert those old systems.
    So cloud, there's a great opportunity. It's not the 
solution for everything. But there's substantial savings.
    And from a security perspective, you know, if you really 
look, the intel community kind of led the cloud migration. We 
were concerned on the civilian side about having enough 
security. So if it was good enough for intel, it's probably 
good enough for a lot of others.
    The other thing you could do is, through your contracting 
provisions--and we did work on this, looking at service-level 
agreements and contracts--you can specify the level of security 
you want from those cloud providers and actually dictate the 
level of security. So, in many ways, cloud services can be more 
secure than what we currently have.
    Mr. Blum. Do you think all Federal IT should eventually end 
up in the cloud?
    Mr. Powner. There are some aspects that won't be in the 
cloud because they're unique to agency missions, but there's a 
large portion that could end up being in the cloud.
    But there are these pockets of unique applications that we 
do that no one else has that we have to do the hard work and 
convert those to more modern platforms and modern software.
    Mr. Blum. Where are we at today in this journey to the 
cloud?
    Mr. Powner. So that's a good question. We're doing some 
work for this committee where we've done prior works, and we 
try to measure it as a percentage of budget or IT spend, and 
it's very difficult. You know, we did this work a couple years 
ago, where agencies varied from 2 to 7 percent of their IT 
budgets were in the cloud. That's improved somewhat. But it's 
very difficult to give you a good, hard number right now. We're 
working on that for this committee.
    Mr. Blum. Thank you.
    Ms. Weichert, is it?
    Ms. Weichert. Yes.
    Mr. Blum. OMB, how involved are they in this migration to 
the cloud?
    Ms. Weichert. So it's a great question, and it is actually 
one of the priorities that we're laying out as part of the 
President's Management Agenda. Now that the Federal CIO is in 
place, it is on her top priority list.
    And we're working closely with GSA and the centers of 
excellence on the implementation. They've already met to put 
together tiger teams in terms of cloud email adoption, and 
they're looking at other areas where commercially available 
solutions are already in place, secure, and working at some 
agencies, to elevate the lessons from those and extend them 
across government.
    But ultimately the test, to the question that you asked 
earlier around which things should migrate to the cloud, it's 
essentially going to be dependent on the mission; the service 
aspects, so how well we can serve the needs of our citizens and 
the American people; and then the stewardship aspects of 
financial stewardship. So we're really going to be looking at 
balancing those three items.
    Mr. Blum. Thank you.
    Mr. Zielinski--I hope I pronounced that right--this is kind 
of interesting. The centers of excellence, can you just briefly 
tell me about that and that effort?
    Mr. Zielinski. Certainly. Thank you for the question.
    Going back to some of the things that Mr. Powner mentioned, 
as agencies are making these decisions about their strategies 
for moving to the cloud or considering the cloud, the centers 
of excellence are places where we bring together technical 
expertise, the engineers and others who understand the dynamics 
of matching those business applications and those business 
functions to where they best lend themselves to a cloud 
application, whether that software is a service or platform is 
a service, and then help agencies to find acquisition 
strategies for them to be able to move.
    So there's a lot of direct assistance that those centers of 
excellence provide to a customer agency, and they do that 
through bringing together the expertise, as Ms. Weichert said, 
being able to make sure that we have all of those functions 
working hand in glove, the technical expertise as well as the 
acquisition.
    Mr. Blum. Is it more of a planning function or more of an 
execution function, the centers of excellence?
    Mr. Zielinski. It's absolutely an execution function, sir.
    Mr. Blum. Because I agree with what Mr. Powner said earlier 
about we're good at planning, not so good at following through.
    Thank you very much. I am out of time and I yield back.
    Mr. Hurd. I now recognize the ranking member.
    Ms. Kelly. I just have one quick question and not for Mr. 
Powner.
    How long have all of you been in your positions you're in 
now?
    Ms. Manfra. I was appointed in June of last year, ma'am.
    Mr. Zielinski. I've been with GSA for 2 years.
    Ms. Kelly. In the position you're in now?
    Mr. Zielinski. Six months.
    Ms. Weichert. The Senate confirmed me on Valentine's Day of 
this year.
    Ms. Kelly. All relative newbies, okay. No insult to you, I 
just knew you'd been around. Thank you.
    Mr. Hurd. He's been there forever, I think is the right 
answer.
    Mr. Zielinski, can we follow up on the centers of 
excellence. I recognize myself for 5 minutes. How does this 
program differ from 18F?
    Mr. Zielinski. So thank you for the question, sir. The 18F 
has those technical experts that the centers of excellence can 
actually tap into. So as I talked about bringing together the 
different discipline areas to be able to bring to bear on a 
particular agency problem set and to assist them in being able 
to understand the dynamics of their business case and how they 
can move forward, 18F, as an organization, would be one of the 
areas into which the centers of excellence can reach to bring 
that technical expertise to the table.
    Mr. Hurd. Got you. And how do we ensure these centers of 
excellence, other than having GAO white glove it, how do we 
ensure that these don't duplicate efforts that are going on in 
the rest of the government?
    Mr. Zielinski. So going back to the agenda that has been 
laid out by the administration in and around starting with the 
IT modernization report as well as with the President's 
Management Agenda, it's a very tight weave in terms of ensuring 
that there's a collaboration across all those functional areas.
    And there are many opportunities for those functional areas 
to be brought together to ensure that we are all bringing to 
bear the best talent and that we're also not duplicating 
effort, sir.
    Mr. Hurd. Good copy.
    Ms. Weichert, one of the things that is still frustrating, 
and I'm glad Mr. Powner alluded to this in the beginning of his 
remarks, is CIO authorities. We can't hold CIOs accountable if 
we don't give them all the power they need. FITARA gives them 
that authority, but in many places the agency CIO doesn't have 
the complete budget authority of those--of that entire 
operation.
    And Transportation is an example. I think they have nine 
CIOs, people with the title, nine CIOs, $3 billion-plus budget.
    Can we reprogram the funds from those various sub-CIOs 
into--under the Federal--under the agency CIO in order to 
streamline that budget authority?
    Ms. Weichert. So not being an expert on appropriations, I 
want to caveat and say that I would love to answer that in more 
detail after conferring with some of our budget folks. But what 
I can say is absolutely agree with your frustration. It's 
something we in the administration share and are looking very 
closely at how do we address.
    I think in the President's Management Agenda we are laying 
out how all of the components of the various authorities across 
government, how they work together and how they align together, 
and to avoid duplication, while giving the maximum elevated 
level of capability to the CIOs.
    I think the Technology Modernization Fund and the MGT, in 
providing new capabilities around working capital funds, that 
is a place we are going to start and are already exploring ways 
that we can work with agencies to help them focus and target 
resources towards the highest priority projects, as Mr. Powner 
has suggested.
    In terms of getting additional capabilities, I think the 
authorities are different in terms of transfer and how they can 
use their working capital funds, that I wouldn't want to give 
you an across-the-board answer.
    Mr. Hurd. But would you have heartburn if we were to 
reprogram some of these to ensure that the agency CIO had all 
the budget authority for IT spend across that network?
    Ms. Weichert. So I haven't studied that specific issue.
    Mr. Hurd. Okay. That's a fair answer.
    Ms. Weichert. But what I can say is we are absolutely in 
alignment in terms of the idea that the CIO for the broad 
agency needs to have all the capabilities and tools to make 
these very profound investments.
    And the more we can align to the way the private sector 
works, where you've got a general manager of a division or an 
agency, and their C-suite includes the chief information 
officer, the chief financial officer, the chief people officer, 
and, where appropriate, the procurement officer, they need to 
all be there in lockstep.
    Mr. Hurd. And the CIO. I think you said that.
    Ms. Weichert. I said that first, yes.
    Mr. Hurd. Okay, first. Okay. Gotcha. Gotcha. I agree. And 
my teams would get mad because we're talking about how do we 
change the FITARA Scorecard to penalize agencies that don't 
have the Federal CIO reporting directly to the agency or deputy 
agency head.
    We've asked everybody why, what's going on, why is that the 
case? We've gotten a lot of excuses: ``Oh, it's kind of already 
there.'' Well, if it's already there, then change the damn 
structure. And so we are looking at having that be reflected in 
the FITARA Scorecard.
    Mr. Powner, do you have any opinions on the reprogramming 
and giving complete budget authority to the CIA--CIO? Let me 
rephrase that. The CIO, not the CIA. I don't want anybody to 
get mad and run an ad against me.
    Mr. Powner. I think the first step is that we understand 
all the IT spend. I think many CIOs, we don't even know the 
full totality of what we spend at these departments and 
agencies. So once we understand that, I do think the CIOs 
should control that more.
    It's okay, too, if there ARE some business units that 
control it and they act in partnership, where the CIO is 
working with those business units to spend it appropriately, to 
oversee it the right way and that.
    So I think there's probably even some blend. I think right 
now if we did it completely whole hog, you have complete budget 
authority, the whole bit, I don't know if that would--maybe we 
need to shock the system as you're intending. That's one way to 
do it.
    Mr. Hurd. Your word, not mine, sir.
    Mr. Powner. But the other way to do it is to have some type 
of blend where we know the entire spend and the CIO has a role, 
whether they control every dollar or not, but they're still 
responsible for governing over it. We've got too much IT spend 
that we don't have IT people on it.
    Mr. Hurd. You reminded me of something I was going to ask.
    And, Ms. Weichert, this may not be something on the top of 
your mind.
    Or, Mr. Zielinski, I think this is outside of your scope.
    The Department of Defense recently made the decision to not 
publish their IT amount. I believe it was in a recent--was it 
an OMB report? What was it? The analytical prospectus. It said: 
Hey, we're going to stop showing DOD's number on IT along with 
everyone else.
    So we went from spending, the Federal Government spending 
$90 billion to $40 billion, and they said, you know, asterisks, 
fiscal year 2018, it was roughly $50 billion.
    Do you have any insight into that decision, that process? 
And we will be bringing--again, not to, you know, show our 
hand--but we'll be bringing DOD for the next FITARA Scorecard 
hearing to have them answer that directly. But I'd welcome your 
thoughts.
    Ms. Weichert. Yeah. Unfortunately, that was prior to my 
being confirmed, so I wasn't read in on that particular 
decision.
    Mr. Hurd. When you're talking to them----
    Ms. Weichert. I will note it.
    Mr. Hurd. --tell them this committee is interested.
    Ms. Weichert. I will share that.
    Mr. Hurd. And I'd love to have the answer prior to--should 
I introduce these into the record?
    So, yeah. The analysis in this chapter excludes the 
Department of Defense and classified spending, which in fiscal 
year 2008 was $42.5 billion, or 44 percent of the IT budget. So 
we're going to start showing only 66 percent of the budget as a 
whole number, which seems a little odd to me.
    Ms. Manfra, one of the things I want to do with the FITARA 
Scorecard is transition it into more of a digital hygiene 
scorecard as well. I think the elements, as Mr. Powner has 
talked about, we've got to continue to double down on those 
issues.
    But I think being able to highlight at the macro level good 
digital hygiene is important. I think the inclusion of the 
MEGABYTE Act on that was one of that. Do you know all the 
software that's running on your system? And I think only three 
were able to answer yes, which is pretty shocking. And, again, 
these are self-reporting numbers.
    So what are some of the areas that you think that we should 
or could be exploring when it comes to digital hygiene and how 
we look across that over the entire enterprise?
    Ms. Manfra. So I think, first of all, I think that's a 
great idea, to include that. Frankly, shining a light on some 
of these basic practices has been useful in agencies 
prioritizing.
    So I briefly alluded to the critical vulnerability 
patching. What we saw through years of assessments was just 
continued poor patch management programs. Some of it does have 
to do with legacy systems and all that.
    But what we decided to issue, our first binding operational 
directive, was actually to require the time to patch a critical 
vulnerability down to 30 days.
    And the important way, though, that we were able to be 
successful, I think, with this and with other directives and 
other guidance that we provide is that we can independently 
validate. We're not relying on self-reporting. And so the more 
capability that DHS is deploying--in this case it's the 
external scanning that we're doing of all internet-facing 
devices--that we can say, no, I can see that you haven't 
actually patched.
    The good news story is that when we--I think fiscal year 
2014 average time to patch was somewhere in excess of 200 days 
for critical vulnerabilities, which is bad. After the 
directive--and it continues, which shows how these things 
change behavior--we're averaging in the 10 to 15 days.
    And so it's helping them prioritize their very limited 
resources by focusing on known issues, and that's what we want 
to continue to do, but it's also important that we can 
independently validate this.
    You talked about knowing what software on your system. So 
the Continuous Diagnostics and Mitigation Program that we've 
been deploying, the first phase is hardware and software asset 
management. And we've learned a lot through that program in 
what agencies thought they had on their network was not exactly 
what we found that they had on their network after deploying 
these.
    And I know in one sense it's frustrating to sort of be in 
that environment, but at least we're in a position now where we 
do know. We know what's connected to the network and as we 
deploy more tools.
    And as a side note, this program actually is also very 
cost-effective, and we've been able to identify that I think 
it's 75 percent cost savings off of schedule--if they had 
bought these on Schedule 70.
    So we're deploying common tools that are identifying what 
and who is on networks. And I believe that this will 
fundamentally transform the way that we do, in the first case, 
vulnerability management for the government, but eventually we 
will get to event management and ongoing authorization in those 
programs.
    But it has to be through the deployment of these 
standardized tools that then feed data back to an agency CIO 
and DHS so that we can, through automated sensors, understand 
where they are.
    Mr. Hurd. Would you have security concerns of publishing 
that number of how long it takes to patch software, like the 
average it takes to patch software from agency from agency?
    Ms. Manfra. I don't know how----
    Mr. Hurd. You can take time to think about it.
    Ms. Manfra. Yeah.
    Mr. Hurd. It's just I think that's an element that, self-
reporting, we can establish a letter grade based on what are 
industry best practices. Is a week an A? Two hundred days is 
definitely an F, right? Where that's something that we could 
package and keep track of and make sure that we're continuing 
to shine a light on.
    Ms. Manfra. Absolutely, sir. And there's a few other things 
that we've identified as very common practices that we're 
focusing our guidance on. And we'd be happy to work with you on 
how we can improve those practices.
    Mr. Hurd. And before we get to the gentleman from the 
Commonwealth of Virginia, my last question is, one of the 
things that I've--in the 3-1/2 years we've been doing this 
together, we've asked a lot of questions about, are you doing 
technical vulnerability assessment, penetration testing? And a 
lot of agencies have said yes, and then you find out after the 
fact they're just doing a scan, that they're not bringing a 
third-party system, a third-party vendor to come in and do that 
testing.
    Your organization has been doing that. Have you seen an 
increase in that as a best practice?
    Ms. Manfra. So you're right, there isn't a very common 
definition of what people mean by penetration testing. You 
know, as I noted, we do passive scanning, but that is to 
identify one set of issues.
    We also do our risk and vulnerability assessments, which is 
penetration testing, which is actively going and trying to 
identify and exploit vulnerabilities. That's what we would 
consider.
    We haven't previously taken statistics on what agencies are 
using penetration testing. I can tell you that just in the last 
fiscal year, we did 42. We focus, prioritize high-value assets. 
So we go through all of the high-value assets to do a full risk 
and vulnerability assessment, which includes a penetration test 
as well as a report to them. But we could definitely follow up 
on that.
    Mr. Hurd. Well, we'll be asking the agencies this question, 
so when we collect that information we'll share it with you so 
that you're aware.
    Ms. Manfra. Thank you, sir.
    Mr. Hurd. Now I'd like to recognize the gentleman from the 
Commonwealth of Virginia, the ranking member, Mr. Connolly.
    Mr. Connolly. I thank my friend.
    And welcome to our panel.
    And thank you both to Mr. Hurd and Ms. Kelly for their 
leadership of this subcommittee and on this subject matter. 
We're really fortunate to have Members who care about the 
subject matter and delve into it. It's actually rare. You'd 
think more Members would be involved in IT, but they actually 
aren't, for various and sundry reasons.
    And so one of the great pleasures of serving on this 
committee is that--and Mr. Meadows is not here, but the four of 
us have really worked seamlessly, in a nonpartisan way, to try 
to help rationalize Federal IT policy. And I think for all four 
of us, it doesn't matter whether it's a Democrat or a 
Republican administration, we want it to work.
    And so, in that spirit, welcome.
    Ms. Weichert, in March of last year the White House 
announced the Office of American Innovation. And after that, 
OAI was credited with a whole bunch of projects as large as 
pushing the overhaul at the Veterans Administration healthcare 
IT system, setting the policy for the Federal Government's 
adoption of AI, and presumably implementation of FITARA, data 
center consolidation, moving to the cloud, empowerment of CIOs, 
and so forth.
    Now, under the E-Government Act of 2002, normally that role 
would be played by the Federal CIO. Now that presumably we're 
going to have a Federal CIO, what is OAI's role going forward, 
and how does OMB play a role in all of this as well?
    Ms. Weichert. I think it's a great question, and we are 
working in lockstep across the administration to set out a 
focused agenda for all the elements around not only IT 
modernization, but the other enabling capabilities around data 
transparency and accountability, as well as the people 
dimensions of that.
    And OAI did a great job providing catalytic capabilities in 
getting a lot of these activities started. But what's been 
included in the President's budget in February and what will be 
rolled out next week in the President's Management Agenda is 
the comprehensive go-forward plan.
    We do have a Federal CIO, an outstanding leader from the 
private sector who has done execution of change in complex, 
highly regulated environments in the financial services and 
other industries, who's really here to help continue to carry 
that torch.
    I think a lot of the activities that have been enabled by 
the MGT Act and the TMF are stood up. The Federal CIO actually 
met earlier this week with the members of the IT Modernization 
Fund Board, and they did a dry run, so that when appropriations 
come--I'm hoping they're coming soon--that the board will be 
prepared to act quickly.
    We continue to work very closely with OAI in terms of 
helping shape the strategy and bring to bear the best thinking 
of the administration and also marshal resources outside of 
government to provide insights that might be helpful in our 
journey.
    But we in OMB are really leading the direction with the 
President's Management Agenda and bringing the executive branch 
along. And I look forward to having you all get to see what 
we're putting together that's going to be in the PMA launch 
next week.
    Mr. Connolly. So I know that the chairman talked about 
maybe broadening the current FITARA Scorecard at some point to 
a digital hygiene scorecard. I would be supportive of that once 
we make more substantial progress on implementation of what's 
in front of us, because we've seen some backsliding. You know, 
DOD, the Big Kahuna, got an F. And so we want to see more 
progress, but we can't really see it without leadership coming 
from your office.
    I assume, but let me ask, you are committed to the metrics 
set in the law, FITARA, and the tools, allowing us to try to 
facilitate that, that MGT, just passed into law, also gives 
agencies, to facilitate implementation of the law.
    I assume you're trying to push agencies to meet the metrics 
set for them in the law.
    Ms. Weichert. Absolutely. And I think the focus 
historically, that has been very siloed. In a lot of cases some 
of the challenges around FITARA implementation and some of the 
things measured in the scorecard hit root cause issues that 
were underlying those things. In a lot of cases, people issues 
are part of the problem.
    Mr. Connolly. Yes.
    Ms. Weichert. In some cases data and even the ability to 
see the problem is part of it.
    So part of what we want to do is actually use the broad 
management table to really shine a light on those issues. And 
to the extent the scorecard needs to evolve or mature, we'd be 
very happy to take input from GAO and work with Congress on 
that. But we are very supportive of the spirit of FITARA and 
moving forward with that.
    And I guess the last thing I'll just say is, my perspective 
in the private sector, if you've got a broad failing to meet 
the needs outlined in a strategic plan or a set of metrics, 
it's incumbent upon the person who's accountable for those, 
especially if it's me, to really understand are there root 
cause issues that are preventing us from doing that and then 
addressing those as well.
    Mr. Connolly. Yes, I couldn't agree with you more. And like 
you, I come from the private sector. I spent 20 years as a 
corporate officer. And what I learned in the private sector and 
the public sector is, if the boss doesn't care, neither do I.
    Ms. Weichert. Right.
    Mr. Connolly. I'll give it lip service.
    Ms. Weichert. I care. I care a lot.
    Mr. Connolly. Exactly.
    But they need to feel pressure. They need to know I'm going 
to be evaluated by the boss on implementation, on meeting those 
metrics.
    And the other thing, and then I'll be quiet, but with 
respect to personnel, we've got to empower, in Latin we call it 
primus inter pares, the first among equals in CIOs. There has 
to be a primus CIO who's got the responsibility, the 
accountability, and the power to make decisions. They've got to 
be empowered, and everyone has to know that.
    If the CIO of an agency is reporting to the deputy 
assistant Gromit in the basement, that does not escape the 
attention of everybody else. And I might give lip service, but 
I know he or she doesn't really have the boss' attention.
    We elevate the issue--I mean, we elevate the role of that 
person and the stature of that person, we elevate the issue and 
its importance in everybody's eyes.
    I commend that to you as a reform. It doesn't cost a lot of 
money, but I think it would have a profound effect on 
performance and would save a lot of money for agencies over 
time and make us a lot more effective.
    Thank you, Mr. Chairman.
    Mr. Hurd. Thank you, sir.
    And I failed to spend some time on MGT, so I have a few 
questions. And, Ms. Weichert, they're probably best for you.
    The agencies are still planning to present their 
implementation plans of the MGT working capital fund on the 
27th of March. Is that correct?
    Ms. Weichert. That is correct.
    Mr. Hurd. And will you be able to share those with us?
    Ms. Weichert. So we will be able to share the status on the 
working capital funds early this summer. So we are actively 
working with the agencies to understand what specifically their 
needs are in terms of implementing on that.
    So we already have a number that are well on the way of 
implementing it. We have identified some challenges related to 
transfer authorities that we need to work out. And we'll 
actually be coming back to Congress with some thoughts about 
ways to streamline what's needed to actually make it work as 
intended in the legislation. But we will be coming back 
imminently.
    Mr. Hurd. The sooner you come to us on that, we'll do 
everything we can to help, because I think it's important by 
the end of this fiscal year to have some money deposited in 
those funds at a handful of agencies to be sure that it's 
working.
    Ms. Weichert. We absolutely agree, yes.
    Mr. Hurd. Mr. Powner, do you think we can do that?
    Mr. Powner. Definitely, definitely. And we'll continue to 
work with you. I know that's one of the things we want to focus 
on the scorecard, too, as we evolve that, to look at the 
establishment of those MGT funds and the accountability, who's 
in charge of those and that type of thing.
    Mr. Hurd. Because if you are able to deposit money in your 
MGT working capital fund, it shows a culture of modernization, 
and I think that's important to monitor and focus on.
    I'd like to thank our witnesses again for being here today. 
The hearing record will remain open for 2 weeks for any member 
to submit a written opening statement or questions for the 
record.
    If there's no further business, without objection, the 
subcommittees stand adjourned.
    [Whereupon, at 4:26 p.m., the subcommittees were 
adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
